Summary of Credit Terms- Union Bank Travel Rewards Visa Card
PLEASE NOTE: If you apply for the Union Bank® Travel RewardsTM Visa® Card and meet our eligibility criteria for the Visa Signature®
Card, you agree that we may consider your application as one for (and upgrade you to) the Union Bank Rewards Visa Signature
Card.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

13.99% to 23.99%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

0.00% Introductory APR for the first 12 months that your account is open.
After that, your APR will be 13.99% to 23.99%, based on your creditworthiness. This
APR will vary with the market based on the Prime Rate.

APR for Cash Advances

25.25%.
This APR will vary with the market based on the Prime Rate.

Penalty APR

None

Paying Interest

Your due date is at least 21 calendar days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances and balance transfers on the
transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.75.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0 Introductory Annual Fee for the first year. After that, $49.

Transaction Fees
•

Balance Transfer

Either $10 or 3% of the amount of each balance transfer, whichever is greater.

•

Cash Advance

Either $15 or 5% of the amount of each cash advance, whichever is greater.

•

Foreign Transaction

None

Penalty Fees
•

Late Payment

•

Over-the-Credit Limit

None

Returned Payment

Up to $35.

•

Up to $37.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."

The above information, such as rates and fees, is accurate as of 3/16/2020 and is subject to change. Please contact Union Bank
Customer Service at 877-505-6789 for up-to-date information.

SEE BACK OF PAGE for more important information about your account.

Page 1 of 5

ADDITIONAL TERMS & CONDITIONS
If an account is opened, you will receive a Cardmember Agreement (“Agreement”) with your card(s). You agree to the terms of this Agreement by: using
the account or any card, authorizing their use, or making any payment on the account. We have the right to change the account terms (including the
APRs) in accordance with your Agreement. We reserve the right to change the benefit features associated with your card at any time. Complete terms
and conditions will be provided to you when you become an approved cardmember. Cards are issued and serviced by Union Bank Card Services, a
division of MUFG Union Bank, N.A.

IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT
To help the government fight the funding of terrorism and money laundering activities, the USA PATRIOT Act requires all financial institutions to obtain,
verify, and record information that identifies each person (including business entities) who opens an account. What this means for you: When you open
an account, we will ask for your name, physical address, date of birth, and other information that will allow us to identify you. We may also ask for other
identifying documents. We will let you know if additional information is required.

CREDIT REPORT AUTHORIZATION
By submitting an application for credit, you authorize us to obtain credit bureau reports that we will use when considering your application for credit. You
also authorize us to obtain credit bureau reports and any other information about you in connection with the extensions of credit on your account and the
administration, review or collection of your account. If you ask, we will tell you the name and address of the credit bureau from which we obtained a report
about you. You also authorize us to verify your employment, income and other relevant information.

COMMUNICATION AUTHORIZATION
By providing us with your residential phone number or cell phone number, you agree that we (including companies working on our behalf) have your
permission to contact you at the number provided about any of your Union Bank accounts, and that we may use text messaging, artificial or prerecorded
voice messages and automatic dialing technology for informational and account servicing calls, as well as for collection purposes. Message and data
rates may apply.

ARBITRATION NOTICE
If you are issued a credit card, your Agreement will contain a binding arbitration provision. In the event of any dispute relating to your account, the dispute
will be resolved by binding arbitration pursuant to the rules of the American Arbitration Association or JAMS/Endispute. Both you and we agree to waive
the right to go to court or to have the dispute heard by a jury (except as to any collection activities on your account). You and we will be waiving any right
to a jury trial and you also would not have the right to participate as a part of a class of claimants relating to any dispute with us. Other rights available to
you in court may also be unavailable in arbitration. When you receive your Agreement, you should read the Resolution of Claims by Arbitration provision
in your Agreement carefully and not accept or use the Card unless you agree to be bound by the arbitration provision.

BALANCE TRANSFERS
If you are issued a credit card, you authorize us to make one or more of the balance transfers that you have requested from credit card accounts or other
types of accounts with other financial institutions. All balance transfer requests are subject to our approval; we are not liable if we do not make a requested
balance transfer. We reserve the right to make balance transfers in the order we select and to limit the amount of the balance transfers that we make (this
amount may be less than your total credit limit). If you request an amount that we do not approve, we may process a partial transfer for less than you
requested or we may decline the entire request. In addition, transfer requests that are incomplete, illegible or requested to cash, to yourself or to another
account with us or one of our affiliates need not be processed. You should not transfer any amount that is in dispute in order to preserve your dispute
rights. When you transfer a balance from another account, we send a payment in the amount of the balance transfer to the other financial institution. We
have no control over, and are not responsible for, how and when the other financial institution applies the payment. You are responsible for verifying that
the other financial institution applies the balance transfer payment in accordance with your other account’s terms. You should continue to monitor the
other accounts that you request a transfer balance to and you should continue to pay the minimum payments due on those accounts until you receive
statements from those creditors showing that the balances due them have been paid in full. This might not happen until after the balance transfer appears
on your billing statement from us. You are liable for any late payments, finance charges or disputed amounts on your other accounts. We do not send
instructions to the other financial institution to close your other account. If you want the other account to be closed, you must do that yourself. Balance
transfers are subject to applicable fees and finance charges and do not have the benefit of a grace period. If you take advantage of a balance transfer
offer and continue to use the credit card to make purchases, you will lose the interest-free grace period on the new Purchases unless you pay
the entire statement balance, including the amount subject to the promotional APR, by the payment due date.

OVERDRAFT PROTECTION LINKED TO A UNION BANK CREDIT CARD
By enrolling in Overdraft Protection Linked to a Union Bank Credit Card, you authorize the Bank to make advances on your Union Bank Credit Card
(subject to your available credit) in order to cover transactions (including transfers between checking, money market, and savings accounts) presented for
payment against insufficient funds. We will not authorize transactions requiring real-time authorization (such as ATM withdrawals, ATM or Debit Card
Purchases, and cash withdrawals in a Union Bank branch) using this service. If you attempt a transaction requiring real-time authorization and there are
insufficient available funds in the linked checking account, the transaction will be declined. Activation of the Overdraft Protection service may take up to 5

Page 2 of 5

business days following the approval of a new credit card account; for customers with an existing open credit card account, it may take up to 5 business
days from the initial request to enroll in the Overdraft Protection service.
Each business day that we determine that your linked checking account is overdrawn by any amount, you authorize us to make an Overdraft Advance
equal to a) $50, or b) the next highest multiple of $50 that will equal or exceed the linked checking account overdraft, as determined by us. For example,
if we determine that your linked checking account is overdrawn by $125, you understand and agree that we may automatically make an Overdraft Advance
of $150 from your Union Bank Credit Card for deposit to your linked checking account. We will make advances only once each business day.
Advances will only be processed if at least one transaction can be covered by the advanced amount. Any negative balance from a previous business day
will not trigger an advance unless another eligible transaction is presented for payment and there is sufficient available credit on the credit card account to
cover at least that additional transaction. If you do not have sufficient available credit on your credit card account to cover all transactions, your linked
checking account may be subject to fees for any uncovered transactions. The total advance amount will appear on the linked checking account statement
each day an advance is made. Only one checking account may be linked to one credit card account, and both accounts must have a common owner. If
your linked checking account is changed to a closed status for any reason, Union Bank may terminate the Overdraft Protection Linked to a Union Bank
Credit Card service without notice.
Overdraft Advances and the $10 daily Overdraft Advance Fee will be added to your Overdraft Advance Balance Category on your credit card monthly
statement and be charged the Overdraft Advance Annual Percentage Rate. Your APR will be 13.99% to 23.99%, based on your creditworthiness. This
APR will vary with the market based on the Prime Rate. No grace period will apply when calculating finance charges for Overdraft Advances. If your
linked credit card account is changed to a closed status for any reason, Union Bank may terminate the Overdraft Protection Linked to a Union Bank Credit
Card service without notice. You may cancel this service at any time.
Some accounts may not be eligible for Overdraft Protection Linked to a Union Bank Credit Card. For more information, see the Union Bank Personal
Accounts & Services Disclosure and Agreement.

OTHER DISCLOSURES
WASHINGTON STATE RESIDENTS: Washington state law prohibits discrimination in credit transactions because of race, creed, color, national origin,
sex, or marital status. The Washington State Human Rights Commission administers compliance with this law.
CALIFORNIA RESIDENTS: A married applicant may apply for a separate account. Additionally, we may obtain information at any time from the California
Department of Motor Vehicles. You agree to waive the address confidentiality requirements section of the California Vehicle Code (Section 1808.21).
OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy customers and that
credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights Commission administers compliance
with this law.
NOTICE TO MARRIED WISCONSIN APPLICANTS: No provision of any marital property agreement, unilateral statement or court decree adversely
affects our interests and/or rights unless, prior to the time the credit is granted or an open-end credit plan is entered into, we are furnished with a copy of
the agreement, statement, or decree, or have actual knowledge of the adverse provision. Married Wisconsin residents applying for credit separately
must furnish name and address of their spouse to Union Bank at P.O. Box 51442, Los Angeles, CA 90051.
NEW YORK RESIDENTS may contact the New York State Department of Financial Services by telephone at 1-800-342-3736 or visit its website at
http://www.dfs.ny.gov for free information on comparative credit card rates, fees and grace periods.

MILITARY LENDING ACT
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This
rate must include, as applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts); and
any participation fee charged (other than certain participation fees for a credit card account).
Additionally, if any clause in your Agreement with us conflicts with the federal law protections afforded to members of the Armed Forces, including any
provision related to mandatory arbitration, federal law will prevail.
If you would like to receive this Military Lending Act disclosure orally, please call 1-877-925-8666.

Page 3 of 5

REWARDS PROGRAM TERMS AND CONDITIONS
The following is a summary of certain key terms and conditions for the Union Bank Rewards Program for the Union Bank Travel Rewards Visa Credit
Card. You will receive complete Program terms and conditions with your account opening materials if your application is approved.
EARNING REWARD POINTS
Purchases
You earn points when you (or your authorized user) make “Purchases” of products and services with your credit card, excluding disputed billing items and
items that are subsequently subject to a refund or credit (such as for returned merchandise) (collectively “Purchases”).
Purchases do not include:
a) Annual fees, finance charges and other fees or charges posted by us to the account;
b) Cash advances (including but not limited to cash received over the amount of Purchases charged to the account, Purchases of money orders
or other cash equivalents) or special check transactions;
c) Balance transfers;
d) Overdraft advances;
e) Charges for other products, services, or benefits that we provide (such as credit insurance premiums); or
f)
Other transactions that we determine not to be eligible.
Point awards are not earned until they appear on the account statement. Points that have been awarded may be deducted if, after points are awarded,
Purchases are subsequently subject to a refund, credit or dispute. We reserve the right to retroactively correct errors made in point awards. Points you
earn during the billing cycle will be added to your reward point balance within 7 days after the end of the billing cycle.
Introductory Rewards Bonus
You will earn a 20,000 introductory reward points bonus following your first $1,500 in Purchases made within 3 months of account opening. These
points will post to your reward point balance within 8 weeks after the close of your third billing cycle. You are limited to one introductory reward points
bonus per card account.
Travel Points
You will earn 3 points (also referred to in marketing materials as “3X points”) (consisting of 1 base point and 2 bonus points) for each $1 spent for the
first $6,000 of Purchases made during each year (based on your account opening date) on Travel. A “Travel” merchant is a merchant with the merchant
category code (MCC) for “Airlines” (MCC 3000-3350), “Airlines, Air Carriers (not listed elsewhere)” (MCC 4511), “Hotels” (MCC 3501-3999), “Car Rental”
(MCC 3351-3500), “Other Travel” (MCC 4112, 4121, 4131, 4411, 4457, 4722, 4784, 4789, 7012, 7033, 7519, 7523).. After you make $6,000 in Purchases
on Travel in a year, you will earn 1 point for each $1.00 spent on Purchases that you make on Travel for the remainder of the year.
Restaurant Points
You will earn 2 points (also referred to in marketing materials as “2X points”) (consisting of 1 base point and 1 bonus points) for each $1 spent for the
first $6,000 of Purchases made during each year (based on your account opening date) at Restaurants. A “Restaurant” is a merchant with the merchant
category code (MCC) for “Caterers” (MCC 5811), “Eating Places and Restaurants” (MCC 5812), "Drinking Places (Alcoholic Beverages), Bars, Taverns,
Cocktail Lounges, Nightclubs and Discotheques” (MCC 5813), “Fast Food Restaurants” (MCC 5814). After you make $6,000 in Purchases at Restaurants
in a year, you will earn 1 point for each $1.00 spent on Purchases that you make at Restaurants for the remainder of the year.
All Other Purchases
You will earn 1 point (also referred to in marketing materials as “1X points”) for each $1 spent on all new eligible Purchases charged to the card each
billing cycle that are from merchants that are not Travel or Restaurant merchants.
Merchant Category Codes & Purchases
Merchants are assigned a merchant category code by payment card processors based upon the merchant's primary line of business. We do not determine
the MCC for a merchant. Whether a transaction is eligible for bonus points depends on the MCC actually assigned to a merchant. Purchases processed
through merchants that do not process transactions under the eligible MCC and Purchases processed through third-party payment accounts (e.g.,
PayPal™) will not qualify to receive bonus rewards.
REWARD POINT REDEMPTION
You may redeem points for the following:
•
•
•
•

Merchandise, gift cards/certificates, travel (airline, hotel and car rental), and additional redemption options based on the point redemption value
associated with the Reward, which may vary depending on the Reward;
A statement credit to your card account at a rate of 1 cent per point;
A deposit into a Union Bank checking or savings account at a rate of 1.25 cents per point;
A principal reduction payment to your Union Bank mortgage account at a rate of 1.50 cents per point.

You must have a Union Bank checking account, savings account, or residential mortgage account in an open status with Union Bank to qualify for the last
two point redemption methods referenced above.
When you redeem points for a statement credit to your card account, the statement credit is treated as an additional payment on your account. You are
still required to make your regular monthly account payments as indicated on your monthly statements. Statement credits will post to your card
account within 5 business days. It may not appear on your monthly statement for 1 to 2 billing cycles.

Page 4 of 5

When you redeem points for a deposit into a Union Bank checking or savings account, the deposit will post to your checking or savings account within 5
business days.
When you redeem points for a principal reduction payment to your Union Bank mortgage account, the payment will be applied as an extra principal
payment and will not count toward your regular monthly payment. You are still required to make your regular mortgage account payments as
indicated on your monthly mortgage statements. Principal reduction payments will post to your mortgage account within 5 business days. It may not
appear on your mortgage account monthly statement for 1 to 2 billing cycles.
We may also provide additional redemption options from time to time. Redemption options are offered solely in our discretion, are not guaranteed, and
are subject to any limits that we may impose. Redemptions options may be withdrawn at any time without notice.
The amount of points redeemed for a Reward will be subtracted from your point balance. We may, in our discretion, set a minimum or a maximum number
of points that you may redeem in a single transaction. We may adjust this amount from time to time. We also may require that redemptions occur in round
increments that we will set in our discretion from time to time. All Rewards are subject to availability. We may withdraw, change or replace any Reward
item. We may also change the number of points required to redeem a Reward, at any time and without prior notice to you. All redemption transactions
are final. There are no refunds, exchanges, replacements or conversions for currency, credits, points, or Rewards. Point redemptions for Rewards may
be subject to shipping, handling or other fees, and shipping restrictions may apply.
The merchants participating in the Program are not affiliated with us nor are these merchants considered sponsors or co-sponsors of the Program. All
trademarks are the property of their respective owners. The merchants’ terms and conditions apply to their respective gift cards/certificates, merchandise
and/or services. Upon receiving your Rewards, see each merchant’s specific terms and conditions for complete details, which are subject to change by
the merchants at their sole discretion from time to time, subject to applicable law.
REWARD POINT EXPIRATION
Points are redeemed on a first-in, first-out basis. Points will expire on or after the third anniversary of the date earned.
PROGRAM CHANGES
We reserve the right to change these Program terms and conditions with or without prior notice (except where required by law). Point redemption amounts
may change at any time.
DISQUALIFICATION/TERMINATION
If the account does not remain in good standing, you will not earn future points, cannot redeem points, and you will forfeit any accumulated points previously
awarded. An account is in good standing when no event has occurred that allows us to require immediate payment of your entire balance under the
Agreement, including, without limitation, failing to make the minimum payment when due, having a payment to us denied, providing us false or misleading
information, or other reasons described in the Rewards Program Terms and Conditions.
We reserve the right to disqualify or remove any person or account from participation in the Program, refuse to award or redeem points, or close your
account at any time, for any reason including, but not limited to, your account being inactive (as such term is defined by us from time to time). If such a
disqualification occurs, it may result in the forfeiture of any accumulated points. Closing your account (by you or by us) will result in the termination of your
enrollment in the Program, and any accumulated points will be forfeited.

Cards are issued and serviced by Union Bank Card Services, a division of MUFG Union Bank, N.A.
©2020 MUFG Union Bank, N.A. All rights reserved. Member FDIC.
Union Bank is a registered trademark and brand name of MUFG Union Bank, N.A. unionbank.com
Union Bank Travel Rewards Visa Card (CTR/CTR321TR)- Web 05/20

Page 5 of 5

